audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the
	Lawrence, Massachusetts Police Department
Report No. GR-70-01-004
May 25, 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Lawrence, Massachusetts, Police Department (Lawrence).  The purpose of the grants is to enhance community policing.  Lawrence was awarded a total of $8,447,539 to hire 85 new police officers and $818,100 to redeploy the equivalent of 23 full-time officers to community policing.  	

 	We reviewed Lawrence's compliance with eight essential grant conditions.  We found weaknesses in the six areas identified below.  As a result, we question $911,442 and recommend an additional $475,426 put to better use.1

For the hiring grants, we could not determine if the local matching funds came from sources not previously budgeted for law enforcement.
	For three of the five hiring grants, anticipated expenditures were overstated in the grant application.  Consequently, all funds awarded will not be expended.  Both the hiring and redeployment grants included requests for reimbursements that were not allowable.
	Lawrence could not provide us with documentation to demonstrate that it was taking steps to retain the officers funded under one of the hiring supplements.
	For both redeployment grants, Lawrence did not have a plan to track the redeployment of 23 full-time equivalent (FTE) officer positions.
	The level of effort allocated to community policing was not commensurate with the amount of hiring and redeployment grant funding received.
	Some of Lawrence's required grant monitoring reports were not submitted, were not accurate, or were not timely.


Footnote:
   The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and definitions of questioned costs and funds to better use.

 These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.